<html>
<title> - VOTING IN AMERICA: THE POTENTIAL FOR VOTER LIST PURGES TO INTERFERE WITH FREE AND FAIR ACCESS TO THE BALLOT</title>
<body><pre>[House Hearing, 117 Congress]
[From the U.S. Government Publishing Office]




 
  VOTING IN AMERICA: THE POTENTIAL FOR VOTER LIST PURGES TO INTERFERE 
                WITH FREE AND FAIR ACCESS TO THE BALLOT

=======================================================================

                                HEARING

                               before the

                       SUBCOMMITTEE ON ELECTIONS

                                 OF THE

                           COMMITTEE ON HOUSE
                             ADMINISTRATION
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED SEVENTEENTH CONGRESS

                             FIRST SESSION

                               __________

                              MAY 6, 2021

                               __________

      Printed for the use of the Committee on House Administration
      
      
      
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                       Available on the Internet:
         http://www.gpoinfo.gov/committee/house-administration
         
         
                          ______

             U.S. GOVERNMENT PUBLISHING OFFICE 
45-399                  WASHINGTON : 2021 
          
         
         
         
         
         

  VOTING IN AMERICA: THE POTENTIAL FOR VOTER LIST PURGES TO INTERFERE 
                WITH FREE AND FAIR ACCESS TO THE BALLOT
                
                
                
                
                
                
                
                   COMMITTEE ON HOUSE ADMINISTRATION

                  ZOE LOFGREN, California, Chairperson
JAMIE RASKIN, Maryland               RODNEY DAVIS, Illinois,
G. K. BUTTERFIELD, North Carolina      Ranking Member
PETE AGUILAR, California             BARRY LOUDERMILK, Georgia
MARY GAY SCANLON, Pennsylvania       BRYAN STEIL, Wisconsin
TERESA LEGER FERNANDEZ, New Mexico


                            C O N T E N T S

                              ----------                              

                              MAY 6, 2021

                                                                   Page

Voting in America: The Potential for Voter List Purges to 
  Interfere with Free and Fair Access to the Ballot..............     1

                           OPENING STATEMENTS

Chairman G. K. Butterfield.......................................     1
    Prepared statement of Chairman Butterfield...................     4
Hon. Bryan Steil, Ranking Member.................................     6
    Prepared statement of Ranking Member Steil...................     8

                               WITNESSES

The Honorable Joshua L. Kaul, Attorney General, State of 
  Wisconsin......................................................    12
    Prepared statement of The Honorable Joshua Kaul..............    14
Sophia Lakin, Deputy Director, Voting Rights Project, ACLU.......    17
    Prepared statement of Ms. Lakin..............................    19
Marc Meredith, Associate Professor, University of Pennsylvania...    38
    Prepared statement of Dr. Meredith...........................    40
Kaylan Phillips, Litigation Counsel, Public Interest Legal 
  Foundation.....................................................    49
    Prepared statement of Ms. Phillips...........................    51

                        QUESTIONS FOR THE RECORD

The Honorable Joshua L. Kaul, Attorney General, State of 
  Wisconsin, Answers to submitted questions......................    72
Sophia Lakin, Deputy Director, Voting Rights Project, ACLU, 
  Answers to submitted questions.................................    75
Marc Meredith, Associate Professor, University of Pennsylvania, 
  Answers to submitted questions.................................    81
Kaylan Phillips, Litigation Counsel, Public Interest Legal 
  Foundation, Answers to submitted questions.....................    86

                       SUBMISSIONS FOR THE RECORD

How the Wisconson Voter Purge Targets Black Voters, Submission...   152
American Political Science Review, One Person, One Vote: 
  Estimating the Prevalence of Double Voting U.S. Presidential 
  Elections, Submission..........................................   156
Georgia Voter Roll Purge Errors, Submission......................   170
Science Advances, The Racial Burden of Voter List Maintenance 
  Errors: Evidence From Wisconsin's Supplemental Movers poll 
  books, Submission..............................................   192
11th Circuit Judgment Florida, Submission........................   202
Judge Fred Biery Order, Submission...............................   236


  VOTING IN AMERICA: THE POTENTIAL FOR VOTER LIST PURGES TO INTERFERE 
                WITH FREE AND FAIR ACCESS TO THE BALLOT

                              ----------                              


                         THURSDAY, MAY 6, 2021

                  House of Representatives,
                         Subcommittee on Elections,
                         Committee on House Administration,
                                                    Washington, DC.
    The Subcommittee met, pursuant to call, at 2:00 p.m., via 
Webex, Hon. G. K. Butterfield [Chair of the Subcommittee] 
presiding.
    Present: Representatives Butterfield, Aguilar, Leger 
Fernandez, and Steil.
    Also Present: Representatives Lofgren, Scanlon, and Rodney 
Davis of Illinois, and Loudermilk.
    Staff Present: Jamie Fleet, Staff Director; David Tucker, 
Parliamentarian; Brandon Jacobs, Legislative Clerk; Sean 
Wright, Senior Elections Counsel; Andrew Kasper, Elections 
Counsel; Peter Whippy, Communications Director; Natalie Young, 
Press Secretary; Tim Monahan, Minority Staff Director; Caleb 
Hays, Minority General Counsel and Deputy Staff Director; 
Gineen Bresso, Minority Special Counsel; Nick Crocker, Minority 
Deputy Staff Director; and Mike Cunningham, Minority Policy 
Staff.
    Chairman Butterfield. The Subcommittee on Elections of the 
Committee on House Administration will now come to order.
    I am pleased that several members have joined us today, and 
I will recognize each one of them by name, first of all, to say 
greetings to each one of them, but also to establish a quorum.
    We have with us Mr. Aguilar from California; the Ranking 
Member, Mr. Steil, from Wisconsin; Ms. Leger Fernandez from New 
Mexico; the Ranking Member of the full Committee, Mr. Davis of 
Illinois; Ms. Scanlon from Pennsylvania; and, of course, 
myself. I will declare a quorum to be present.
    Let me begin by saying good afternoon to all of you. As we 
begin today, I want to note that we are holding this hearing in 
compliance with the regulations for remote committee 
proceedings pursuant to House Resolution 8.
    Generally, we ask Committee members and witnesses to keep 
their microphones muted when not speaking to limit background 
noise. Members will need to unmute themselves when seeking 
recognition or when recognized for their 5 minutes. Witnesses 
will also need to unmute themselves when recognized for their 5 
minutes or when answering a question.
    Now, members and witnesses, please, please keep your 
cameras on at all times even if you need to step away for just 
a few moments. Please, please do not leave the meeting or turn 
your camera off. There are good reasons for this rule, and I 
will insist that we abide by the rule.
    I would also like to remind members that the regulations 
governing remote proceedings require that we cannot participate 
in more than one committee proceeding at the same time.
    And so at this time, I will ask unanimous consent that all 
members have 5 legislative days in which to revise and extend 
their remarks and have any written statements be made part of 
the record.
    I hear no objections. Hearing no objections, it is so 
ordered.
    Ladies and gentlemen, this is the second in a series of 
hearings this Subcommittee will be conducting this calendar 
year examining voting and election administration in the United 
States of America. Today we are examining State and local laws 
and processes governing the removal of registered voters from 
voting rolls.
    Federal law requires that States make a reasonable effort--
that is the terminology in the law--States must make a 
reasonable effort to remove registered voters from their rolls 
who are ineligible to vote in the State because, for example, 
they have passed away, they have died, or moved maybe to 
another State.
    But the law also requires that any State statute or any 
process governing the removal of voters from the voting rolls 
must be uniform, must be nondiscriminatory, and in compliance 
with the 1965 Voting Rights Act.
    Now, since the Supreme Court's 2013 decision in Shelby 
County v. Holder--which we are all familiar with, that case 
rendered a key provision of the Voting Rights Act to be 
inoperable--a number of States across the country have moved to 
aggressively remove voters from their voting rolls.
    Recent reports have found that States removed more than 30 
million voters from their rolls between 2014 and 2018, just a 
span of 4 years.
    The voter roll purges have been particularly aggressive in 
States that before Shelby had to obtain preclearance under the 
Voting Rights Act of their voter removal programs from the 
Department of Justice.
    One study that I have read, one study found post-Shelby 
County increases in purge rates are between 1.5 and 4.5 points 
in States and localities formerly covered by the Voting Rights 
Act compared to States and localities that had never been 
covered. That causes me some concern.
    Far too often these new aggressive voter roll purge efforts 
have wrongfully removed voters who were properly registered to 
vote. Indeed, studies indicate that hundreds of thousands of 
properly registered voters have been the subject of flawed 
voter purge efforts. Voters and organizations have spent 
thousands of hours and millions of dollars to correct these 
errors.
    And so I think we can do better. We must do better. We 
should be doing all that is in our power to make it easier to 
vote, not erroneously trying to strip properly registered 
voters of their right to vote.
    The facts and circumstances surrounding several of the 
voter purges also raise significant questions about whether 
those voter purge efforts complied with mandates under Federal 
law that any program providing for the removal of voters from 
voting lists, they must be uniform and they must be 
nondiscriminatory.
    Several States have engaged in highly public efforts to 
remove noncitizens from their voting rolls. These efforts, 
which disproportionately seek to disenfranchise Hispanic and 
Latino voters, often rely on databases that are known to have 
inaccurate citizenship information.
    Equally troubling is evidence that the databases and 
processes many States are using to remove voters from their 
rolls are likely to disproportionately burden minority voters.
    Let me put it simply. Longstanding socioeconomic 
disparities appear to make it more likely that properly 
registered minority voters are erroneously identified as 
subject for removal. That troubles me, and it should trouble 
you.
    Also troubling is a growing trend of conservative interest 
groups filing legal actions seeking to compel States and compel 
localities to remove voters from their rolls. Many of these 
actions, which rely on little more than allegations that 
registration rates are implausibly high, have been targeted. 
They have been targeted at cities and counties with 
disproportionately large minority populations.
    High voter registration should be a subject of community 
pride, not an invitation to litigate.
    And perhaps most troubling is the raft of bills recently 
enacted or currently being considered by State legislatures to 
remove even more voters from the rolls.
    These bills, these bills which have their genesis in the 
baseless allegations of irregularities in the 2020 election, 
often provide for the removal of voters based on little more 
than a voter exercising his or her right not to vote in a 
single election.
    The testimony provided today will help us as this Committee 
seeks to understand what needs to be done to ensure that voter 
list maintenance efforts are nondiscriminatory and do not 
erroneously remove properly registered voters, plain and 
simple.
    And so I look forward to hearing from today's witnesses and 
working with my colleagues on this very, very important issue.
    I now would like to recognize the Ranking Member of the 
Subcommittee, Mr. Steil, for his opening statement.
    Mr. Steil.
    [The statement of Chairman Butterfield follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    
    Mr. Steil. Thank you very much, Chairman.
    I can report, in the State of Wisconsin we have a lot of 
pride because we have one of the highest voter participation 
rates in the country.
    But as we dive into this topic, Federal law requires States 
to, quote, ``conduct a general program that makes a reasonable 
effort to remove from the official list any voters ineligible 
by reason of death or change of address.''
    And so when President Clinton signed the National Voter 
Registration Act in 1993, he said, quote, ``Every year from now 
on, we are going to have more registered voters and more people 
voting. We are going to make the system work,'' end quote. And 
the NVRA's purpose is to make it easier to register to vote and 
to ensure that States have accurate voter rolls to support 
voter confidence in Federal elections.
    That is what the Democrat House, Senate, and Democratic 
President Bill Clinton thought then. Now Democrats suggest that 
this Democrat-led effort interferes with free and fair access 
to the ballots. Is this the same Democratic Party that 
supported the NVRA's reasonable safeguards in 1993?
    There is nothing that should be controversial about 
ensuring people who have died or moved away aren't registered 
at their old address. A State's refusal to comply with NVRA is 
expensive, it is wasteful, it creates voter confusion, and it 
weakens voter confidence in election results.
    If we want to actually increase voter participation, I 
believe we should be fighting for better-run elections so 
people will hold confidence in the election results. If States 
mail live ballots to everyone on an outdated list, we might 
expect multiple ballots to arrive at incorrect addresses. Many 
of these problems wouldn't happen with proper list maintenance.
    Outdated voter rolls may lead to long lines for in-person 
voting. In 2020, L.A. County voters waited hours because voter 
check-in equipment was overwhelmed. Turns out L.A. County had 
over 1.5 million ineligible people on the voter rolls. A suit 
was filed by a nonpartisan watchdog that alleged L.A. County 
had 112 percent of its adult citizens registered to vote.
    Under pressure, as you may know, California and L.A. County 
finally agreed to clean up their voter rolls in 2019. And, 
unfortunately, then California Secretary of State Alex Padilla 
could not tell this Committee last fall how many ineligible 
people, those who were deceased or those who moved out of the 
State, had been removed from California's unmaintained voter 
rolls. Not a lot of faith that California is in compliance with 
the NVRA.
    Pennsylvania recently was forced to comply with Federal law 
and remove 21,000 deceased individuals. Michigan, their 
Secretary of State removed 177,000 ineligible, saying that 
Michigan was not engaged in ``sufficient comprehensive 
efforts'' to maintain its lists.
    In my home State of Wisconsin there was a lawsuit recently 
on this issue of list maintenance. Wisconsin wasn't keeping its 
voter lists up to date, and over 70,000 individuals are 
registered even though, by all indications, they have moved.
    My State's attorney general, a witness we will hear from 
today, filed a brief and presented oral arguments in court in 
support of keeping these individuals on Wisconsin's voter rolls 
even though they no longer lived where they were registered. 
And according to WEC, none of them voted in 2020, further 
indicating that these individuals moved.
    Not that these facts are stopping Democrats from trying to 
conflate the issue. Speaker Pelosi tweeted about the case and 
got a ``pants on fire'' rating from PolitiFact because she 
claimed 200,000-plus people, quote, ``[would] Be prohibited 
from voting,'' end quote.
    Of course that is not true. Anyone who has moved may 
register to vote with a new address. And in Wisconsin, folks 
can even register to vote at the polls on election day.
    The point is this. Our goal should always be to ensure 
every eligible voter can cast their vote and that each voter 
has confidence in the integrity of our election process and 
outcomes. The NVRA provides specific instructions for 
conducting list maintenance and voter fail-safes. No voter may 
be removed solely for failure to vote no matter how long that 
has been. No comprehensive list maintenance may be conducted 
within 90 days of a Federal election.
    And, importantly, if a mistake is made, voters can still 
preserve their vote by casting a provisional ballot and 
addressing the issue with election officials.
    Inaccurate voter lists can significantly increase wait 
times for in-person voting and have ineligible voters on the 
voter rolls weaken voter confidence that our elections are run 
fairly and are run accurately.
    I believe we should be working to ensure States comply with 
Federal law Democrats passed in 1993, not making excuses.
    But across the board, I look forward to today's discussion 
and conversation.
    And with that, Mr. Chairman, I will yield back.
    [The statement of Mr. Steil follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]      
  
    
    Chairman Butterfield. Thank you, Mr. Steil. The gentleman 
yields back.
    In just a moment, I will introduce today's panel. But 
before I do that, let me just acknowledge the presence of the 
full Committee Chair, Ms. Lofgren of California, and yield time 
to her for such statements as she may choose to make.
    Ms. Lofgren, thank you for joining us.
    The Chairperson. Thank you so much, Mr. Chairman.
    I just wanted to stop by for a minute and thank the members 
of the Elections Subcommittee for the vigor with which they are 
approaching the questions of the right to vote in America and 
thank also our witnesses for appearing today.
    Obviously, voting is fundamental for American citizens. It 
is the whole basis for our country's freedom and what our brave 
men and women have gone off to fight for over the decades so 
that we have that precious right. We need to guard that right, 
and I am confident that the Committee's inquiries will help 
protect that right.
    We all know that the NVRA was passed when the Voting Rights 
Act was in full swing, before the Shelby decision. And so here 
is the question: Have there been pretextual uses of purges that 
really are intended to get to the essence of what the Voting 
Rights Act was originally intended to protect?
    I think that the Committee's deep dive, the data that you 
will get, will inform the Congress and the country as to what 
steps, if any, we should take relative to the Voting Rights Act 
and the preservation of the rights of every single American 
citizen to vote.
    So with that, Mr. Chairman, I thank you for letting me sit 
in and listen and share these words. I commend you for your 
excellent leadership and every member of this Committee for the 
work that you are doing. And I yield back with gratitude.
    Chairman Butterfield. Thank you, Madam Chairperson. And 
thank you so very much for your leadership and all that you do, 
not just for this Committee but for the Congress. Thank you 
very much.
    Let me also extend an opportunity to the Ranking Member of 
the full Committee, my dear, dear friend and neighbor from the 
great State of Illinois, Mr. Davis, for any remarks that he 
might want to make before we hear from the witnesses.
    Mr. Davis. Mr. Chair, I am probably going to surprise you, 
the Chairperson, and the rest of my colleagues today by 
deciding not to go on a diatribe. I want to hear from our 
guests today, and I would like to get as quickly into the Q&A 
as we possibly can.
    And don't think this will probably ever happen again in our 
career together. I am going to yield back the balance of my 
time.
    Chairman Butterfield. Well, you are very kind, Mr. Davis. 
We will allow you to accumulate these minutes. How about that?
    As a reminder to our witnesses, each of you will be 
recognized for 5 minutes. There is a timer on your screen. I 
think you can see it there to the left. There is a timer on 
your screen. Please be sure you can see the timer and are 
mindful of the 5-minute time limit.
    Your entire written statements will be made part of the 
record, and the record will remain open for at least 5 days for 
additional materials to be submitted.
    And so today I welcome each of our witnesses. Joining us 
today are Josh Kaul, who is the Attorney General for the State 
of Wisconsin. We have Sophia Lin Lakin of the American Civil 
Liberties Union. We also have Dr. Marc Meredith of the 
University of Pennsylvania and Kaylan Phillips of the Public 
Interest Legal Foundation.
    Let me be specific about each one.
    Josh Kaul is the 45th Attorney General of the State of 
Wisconsin, having grown up in Oshkosh and Fond du Lac, 
Wisconsin.
    General Kaul--I keep wanting to call it differently--but 
Kaul is the State's chief legal officer and is responsible for 
representing the State in all legal matters.
    General Kaul's top priorities are protecting public safety, 
fighting for clean and safe drinking water and against climate 
change, and protecting the rights of Wisconsinites.
    Prior to serving as attorney general, he litigated numerous 
cases under the 1965 Voting Rights Act, including Wisconsin, my 
home State of North Carolina, Ohio, and Virginia. He also 
served as Federal prosecutor in Baltimore, Maryland.
    Next witness, Sophia Lin Lakin, is the Deputy Director of 
the ACLU's Voting Rights Project and assists in the planning, 
strategy, and supervision of the ACLU's voting rights 
litigation nationwide.
    She has an active docket protecting voting rights and 
combating voter suppression across the country and has led or 
worked on successful challenges to discriminatory voting laws 
in several States, including Georgia, Indiana, Kansas, 
Missouri, North Carolina, Pennsylvania, Texas, and Virginia.
    Among other notable cases, she was lead counsel in cases 
successfully challenging a series of Indiana voter purge 
statutes.
    She is a frequent commentator on voting rights issues, 
presenting at conferences and conducting voting rights 
trainings nationwide.
    Next is Dr. Marc Meredith. Marc is an Associate Professor 
with the University of Pennsylvania, Department of Political 
Science. His research examines the political economy of 
American elections with a particular focus on the application 
of causal inference methods. His substantive research interests 
include election administration, election law, political 
campaigns, and voter decisionmaking.
    His research has been published in numerous leading 
journals, including the American Political Science Review, the 
American Journal of Political Science, the Journal of Politics, 
the Quarterly Journal of Political Science, and the Proceedings 
of the National Academy of Sciences.
    Kaylan Phillips. Kaylan is a litigation counsel with the 
Public Interest Legal Foundation. Ms. Phillips has extensive 
experience at every level of litigation in State and Federal 
court, including our U.S. Supreme Court. She also has 
experience representing clients before Federal and State 
administrative agencies.
    Before joining the Public Interest Legal Foundation, she 
was an associate at the Bopp Law Firm where her Federal 
practice focused on election law.
    Ms. Phillips has also authored numerous amicus curiae 
briefs on key election law issues, such as, ``One Person, One 
Vote.''
    I now would like to recognize each one of our witnesses, 
and I will do them one at a time, starting with Attorney 
General Kaul.
    You are now recognized for five minutes.

 STATEMENTS OF THE HONORABLE JOSHUA L. KAUL, ATTORNEY GENERAL, 
  STATE OF WISCONSIN; MS. SOPHIA LIN LAKIN, DEPUTY DIRECTOR, 
   VOTING RIGHTS PROJECT, ACLU; DR. MARC MEREDITH, ASSOCIATE 
PROFESSOR, UNIVERSITY OF PENNSYLVANIA; AND MS. KAYLAN PHILLIPS, 
      LITIGATION COUNSEL, PUBLIC INTEREST LEGAL FOUNDATION

                  STATEMENT OF JOSHUA L. KAUL

    Mr. Kaul. Thank you to the Chair and Ranking Member of the 
Subcommittee, the Chair and Ranking Member of the full 
Committee, and also to the other Members of Congress who are 
here.
    I would like to start today by talking about Wisconsin's 
experience with ERIC data.
    Pursuant to legislation passed in 2015, the State of 
Wisconsin joined the Electronic Registration Information 
Center, Inc., which is known as ERIC.
    Through ERIC, States and the District of Columbia share 
data with the goal of using that data to assist them in 
identifying eligible voters who aren't registered and voter 
registrations that are no longer valid. ERIC uses data from 
States' voter files as well as data from other sources, such as 
the U.S. Postal Service.
    Now, in 2017 Wisconsin for the first time received a so-
called ERIC ``movers report,'' a report that identifies people 
who possibly have moved. That data has been received every 
other year, so we also received it in 2019.
    Based on the 2017 data, Wisconsin sent approximately 
340,000 potential movers postcards, and it gave them 30 days to 
respond in order for them to remain active on the voter rolls.
    Over 6,000 voters responded and kept their voter 
registrations active at the address at which they were 
registered. The other voters who received those postcards were 
deactivated.
    Now, according to a memo from the staff at the Wisconsin 
Elections Commission, that is our State-wide body that oversees 
elections in Wisconsin, that deactivation created some problems 
in the 2018 spring primary. And according to the Elections 
Commission memo, there were some voters who had not moved but 
hadn't returned their postcards who were left off the poll 
books.
    So the Wisconsin Elections Commission followed up with some 
of the affected voters, and overall, based on their followups 
and having identified situations where voters appeared to have 
moved but didn't, they reactivated over 12,000 voters to the 
rolls between January and March of 2018.
    In addition to that, there are three municipalities, the 
city of Milwaukee, the city of Green Bay, and the Village of 
Hobart, that reached out and had their voters reactivated.
    So ultimately what the Elections Commission did was create 
a Supplemental Movers Poll List so that when voters showed up 
at the polls they could confirm that they had not, in fact, 
moved and could thereby avoid re-registering. And over time, 
more than 6,000 voters ultimately re-registered that way.
    In 2019, the Elections Commission used a different approach 
with the movers data it received. There it sent out letters in 
October of 2019 to approximately 230,000 people and asked them 
to confirm that they still resided at their registration 
address. The letters indicated that voting would keep those 
voters active, and they didn't say anything about deactivating 
voters.
    The next month, however, in November 2019, a group known as 
WILL, the Wisconsin Institute for Law & Liberty, filed suit on 
behalf of three registered voters and taxpayers in Wisconsin 
arguing that the voters who hadn't responded to those notices 
within 30 days should be deactivated. They made an argument 
under Wisconsin State law that that deactivation was warranted.
    Initially, a circuit court judge granted their request and 
issued an order requiring the Elections Commission to comply 
with the provisions of State law, in its words, and deactivate 
the registrations of the electors who had failed to apply for 
continuation of their registration within 30 days of the date 
the notice was mailed under that provision.
    That decision was subsequently reversed in a 3-0 court of 
appeals decision. And the case then went up to our State 
supreme court, and, as Ranking Member Steil mentioned, I 
personally argued that case before our State supreme court.
    Our court is generally regarded as having a 4-3 
conservative majority. But despite that, the court ruled 5-2 to 
affirm the court of appeals decision that those voters did not 
need to be deactivated.
    So there are a couple points I will just note briefly in my 
closing seconds.
    One is, there were thousands of voters who were identified 
in the movers data who ultimately either responded to the 
mailing or reactivated their registrations at the polls. That 
comparison to the number of in-person voter fraud cases is 
dramatic.
    I see that my time is up.
    [The statement of Mr. Kaul follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
       
    Chairman Butterfield. All right. The gentleman's time has 
expired.
    Ms. Lakin, you are now recognized for five minutes.

                 STATEMENT OF SOPHIA LIN LAKIN

    Ms. Lakin. Chair Butterfield, Ranking Member Steil, and 
members of the Subcommittee and the full Committee, thank you 
for the opportunity to testify today. My name is Sophia Lakin, 
and I am the Deputy Director of the ACLU Voting Rights Project.
    Everyone agrees that voter list maintenance, when done 
responsibly, is appropriate and necessary. But proper list 
maintenance entails not only removing ineligible registrants, 
but also taking care that eligible voters are not erroneously 
purged.
    Unfortunately, States and counties around the country have 
engaged in overzealous, sloppy, and/or poorly timed purge 
practices that have wrongly removed and ultimately 
disenfranchised eligible voters.
    Examples of court challenges to improper purges are 
described in my written testimony, but I would like to 
highlight just a few here today.
    Proponents of more aggressive purging often propose 
targeting ineligible voters for removal by comparing State 
voter roll lists to various databases, like other States' voter 
registration lists. But these databases are often incomplete or 
out of date and the protocols used to identify potential 
ineligible voters deeply flawed.
    As a result, eligible voters are often improperly flagged 
for purging, and the results of these distorted comparisons are 
frequently used irresponsibly to support false or exaggerated 
assertions about the integrity of our voter rolls.
    Texas provides a prime example. In 2019, Texas Attorney 
General Ken Paxton tweeted, in capital letters, ``VOTER FRAUD 
ALERT,'' claiming that almost 100,000 registrants in Texas were 
noncitizens based on a voter roll comparison to driver's 
license records.
    But that was false. Within a week, it was clear that many 
of these voters were actually naturalized citizens who had 
already confirmed their citizenship.
    In Harris County alone, this translated to about 18,000 of 
the 30,000 voters flagged there, and an audit of 150 randomly 
chosen names from the remaining 12,000 revealed no noncitizens.
    The impact of this purge of naturalized citizens was of 
profound concern, not least because over 80 percent of Texas' 
naturalized citizens are Black or of Latino or Asian origin.
    Civil rights organizations, including the ACLU, sued, and 
the case was settled with Texas ending this deeply flawed 
effort. But the settlement came only after the court found that 
Texas, quote, ``created a mess,'' which, quote, ``exemplified 
the power of the government to strike fear and intimidate the 
least powerful among us.'' Texas taxpayers ended up on the hook 
for $450,000 in costs and attorney's fees.
    The potential for disenfranchisement as a result of these 
inaccurate purges is real. Too frequently, voters discover they 
are no longer on the rolls only when they show up at the polls 
and it is too late to fix the error.
    This was the case with our Ohio client, Navy veteran Larry 
Harmon, who voted in the 2008 election, but like millions of 
Americans around the country, opted not to vote in the 2010 
midterms.
    When Mr. Harmon tried to vote in the 2015 Ohio State 
elections, he arrived at the polls only to discover that his 
registration had been canceled even though he had continuously 
lived and filed taxes at the same address for 17 years.
    Litigation is not adequate on its own to prevent 
disenfranchisement. These cases are costly and slow, and even 
if one practice is blocked another can spring up in its place.
    Take Indiana. In 2017, Indiana adopted a purge program that 
required the immediate purge of voters flagged as having moved 
out of the State using the highly inaccurate and now defunct 
Interstate Voter Registration Crosscheck program.
    Studies have shown that the Crosscheck system incorrectly 
flagged people more than 99 percent of the time. But under the 
Indiana program, targeted voters would get no notice or 
opportunity to correct the record before they were removed.
    When it comes to accurate rolls, ensuring that voters have 
adequate notice and sufficient time to correct the record if 
they are wrongly purged is critical.
    Federal courts blocked the State from implementing the new 
requirement, but just a few months later Indiana enacted a new 
law with the very same problem.
    Even the demise of Crosscheck was not a deterrent. Indiana 
just created its own version, the Indiana Data Enhancement 
Association.
    This latest iteration of Indiana's purge program was again 
blocked, but Indiana appealed the ruling and the appeal was 
argued this past April, nearly 4 years after the case was first 
brought.
    The United States continues to lag behind other developed 
democracies when it comes to voter participation in our 
elections. We should be working together to increase this 
participation and remove obstacles, including practices that 
wrongly remove voters.
    Thank you.
    [The statement of Ms. Lakin follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
        
    Chairman Butterfield. Thank you, Ms. Lakin.
    At this time, I will recognize Dr. Meredith.
    You are recognized for five minutes.

                   STATEMENT OF MARC MEREDITH

    Mr. Meredith. Chairman Butterfield, Ranking Member Steil, 
and members of the Committee, thank you for the opportunity to 
testify before you today.
    Managing voter registration or list maintenance is one of 
the most challenging tasks election administrators face. The 
structure of American election administration means that 
elections officials often are deciding whether to take actions 
to cancel a registration with uncertainty about whether a 
registrant remains eligible to vote at their address of 
registration.
    There are negative consequences both in failing to take 
action on the registrations of those who are no longer eligible 
to vote and when taking action on those registrations who are, 
in fact, eligible.
    Keeping ineligible registrations on the rolls increases the 
cost of election administration and leaves open the possibility 
that an invalid vote could be cast.
    Conversely, taking action on eligible registrations can 
reduce these registrants' trust in the electoral system and 
prevent them from casting a ballot.
    My testimony today highlights my research showing that 
poorly conceived list maintenance protocols can jeopardize 
electoral integrity by impeding eligible registrants--and 
particularly eligible minority registrants--from voting.
    Election administrators have not always recognized some of 
the limitations in the data commonly used in list maintenance 
protocols. List maintenance protocols often rely on information 
on voter registrants contained in other administrative data, 
including data from other States' registration rolls, to 
identify ineligible registrations.
    Sometimes information about a different individual, who I 
refer to as a registration doppelganger, gets attributed to a 
registrant.
    This occurred frequently, for example, in data provided by 
the Interstate Voter Registration Crosscheck program, or 
Crosscheck, a consortium in operation between 2005 and 2019 to 
assist member States in identifying registrants who have moved 
out of State.
    Crosscheck identified cases in which a registrant in one 
member State shared the same first name, last name, and date of 
birth as a registrant in another member State.
    In some cases, election administrators took action on the 
registrations identified by Crosscheck, even in the absence of 
corroborating information indicating that these two 
registrations belong to the same person.
    While the probability that any two distinct registrants 
share the same first name, last name, and date of birth is 
exceedingly small, this happens with significant frequency once 
you are considering trillions of pairings of registrations.
    Thus, list maintenance protocols that took action on the 
basis of Crosscheck data in the absence of corroborating 
information made it harder for some eligible registrants to 
vote just because they had the misfortune of sharing the same 
first name, last name, and date of birth with a registrant in 
another Crosscheck member State.
    A study that I recently published about Wisconsin's list 
maintenance protocols in 2017 and 2018 illustrates other issues 
with using databases to identify registrants for cancellation 
without appropriate safeguards.
    In late 2017, the Wisconsin Elections Commission mailed out 
postcards to registrants flagged as potentially having moved by 
the Electronic Registration Information Center, or ERIC. The 
postcards asked recipients to confirm their registration to 
avoid having it canceled.
    Two findings of my study are particularly relevant.
    First, a majority of registrants who were eligible to vote 
at their address of registration failed to respond to the 
postcard. This highlights that giving notice is not sufficient 
to undo all of the damage when eligible registrations are 
canceled.
    Second, minority registrants were about twice as likely as 
White registrants to vote in 2018 at the address at which they 
were flagged as potentially moving from. This highlights the 
potential for new list maintenance protocols to particularly 
impede eligible minority registrants from voting when they are 
first enacted.
    The National Voter Registration Act of 1993, or NVRA, helps 
but is not sufficient to prevent poorly conceived list 
maintenance protocols from unnecessarily disenfranchising 
voters.
    First, litigation relying on NVRA only blocked the recent 
Indiana law, which attempted to cancel registrations solely on 
the basis of Crosscheck data once it had already been passed.
    Second, the NVRA does not stop Indiana or any other State 
from using flawed data like Crosscheck to move registrants from 
active to inactive status.
    There are a number of reasons why it became more difficult 
for an inactive registrant to vote than an active registrant. 
For example, inactive registrants are excluded in many States 
from receiving certain forms of election mail that are shown to 
increase turnout. Finally, the NVRA does not cover all States.
    List maintenance protocols that lack meaningful safeguards, 
like Indiana's implementation of Crosscheck, come at a 
significant, perhaps unacceptable cost to electoral integrity.
    My research shows that applying a list maintenance protocol 
proposed by Crosscheck in Iowa would have flagged thousands of 
registrations that were, in fact, used to legally vote.
    Greater oversight could prevent the use of list maintenance 
protocols that fail to recognize electoral integrity means 
ensuring eligible registrants can vote as well as stopping 
ineligible votes from being cast.
    Thank you.
    [The statement of Mr. Meredith follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
       
    Chairman Butterfield. Thank you, Dr. Meredith.
    Ms. Phillips, you are now recognized for five minutes.

                  STATEMENT OF KAYLAN PHILLIPS

    Ms. Phillips. Chairman Butterfield, Ranking Member Steil, 
members of the Committee, thank you for the invitation to 
testify today. I am litigation counsel for the Public Interest 
Legal Foundation, a nonpartisan charity devoted to promoting 
election integrity and best practices for election officials.
    A significant problem facing America's electoral process is 
the chronic inaccuracy and lack of integrity in the voter rolls 
that list the individuals registered to vote in local, State, 
and Federal elections.
    As an initial matter, I implore the Committee to reconsider 
the use of the term ``purge'' when referring to list 
maintenance practices. Historically speaking, purges are often 
violent systemic acts of removing political, racial, or ethnic 
groups from society. Simply put, list maintenance is good 
public policy.
    For example, the Public Interest Legal Foundation 
discovered one Pennsylvania registrant who had seven active 
registrations.
    The failure to maintain a continuous program of reasonable 
list maintenance causes many problems, including inaccurate 
voter rolls and misallocation of election resources and funds 
by both election officials and candidates.
    The Public Interest Legal Foundation has developed a robust 
data analysis program with particular emphasis on voter 
registration list maintenance audit functions.
    In essence, the foundation can see how well of a job States 
are doing to identify and timely remove registrants who are 
deceased, relocated, exist in duplicate or worse, and may be 
claiming improper addresses as residences.
    The foundation recently settled a Federal lawsuit against 
the Pennsylvania Department of State focused on the question of 
whether the Commonwealth was performing reasonable efforts to 
remove deceased registrants from the rolls per Section 8 of the 
National Voter Registration Act of 1993.
    Foundation researchers found in excess of 21,000 registered 
voters positively matched against verifiable death records, 
some with dates of death dating back as far as the late 1990s.
    In the aftermath of the 2020 election, lawmakers must come 
to understand the overall quality of an election experience 
relying heavily on mail ballots rests on the reliability of the 
voter registration lists. Vote by mail plus inaccurate 
registration lists equals problems.
    By expanding the removal categories under the National 
Voter Registration Act, we can reap the benefit of more 
detailed accounting practices and hedge the risk of a single 
person being automatically mailed two ballots with variations 
of their own names on it.
    In closing, we have seen marked improvement in voter roll 
quality over the past decade. Many States are showing 
noteworthy innovations in maintaining lists despite Federal 
mandates based on practices and technologies from nearly 30 
years ago.
    Congress can act to help identify and spread those best 
practices.
    The time for measured action is now. Election integrity 
policies have sustained popularity for years and are showing 
renewed spike in interest.
    I look forward to any further questions. Thank you for the 
opportunity to appear.
    [The statement of Ms. Phillips follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
       
    Chairman Butterfield. And thank you, Ms. Phillips, for your 
testimony.
    It is now time for member questions. I will go in the 
following order.
    Mr. Aguilar, you should go first.
    Mr. Aguilar. Thank you so much, Mr. Chairman. I appreciate 
you having this hearing, and Chairperson Lofgren, Ranking 
Member Steil, and Ranking Member Davis for being here.
    And all of our witnesses who took the time to be here, 
thank you so much.
    You know, we heard a lot here about voter list maintenance 
and how it can hurt Americans' ability to vote.
    Dr. Meredith, Ms. Lakin, and Attorney General Kaul, can 
each of you provide just one way that list maintenance can 
occur without removing Americans' access to the ballot box?
    Dr. Meredith.
    Mr. Meredith. Congressman, I will go first because I was 
named first.
    I think there are ways that you can improve the process to 
reduce the likelihood of errors in either direction. Whenever 
there is uncertainty you can never be sure you are going to hit 
one way or another, but your goal is to do the best that you 
can to reduce your errors. Your goal can never be zero errors.
    But I think one piece of data that is very helpful in voter 
registration databases is the last four digits of an 
individual's Social Security number.
    In cases where you have access to the last--in a case where 
both States have access to the last four digits of someone's 
Social Security number, both States do, they can make much more 
accurate assessments when they observe someone with the same 
first name, last name, and date of birth in their registration 
files to know whether those are the same person or the so-
called registration doppelganger.
    Mr. Aguilar. Ms. Lakin.
    Ms. Lakin. So I think there are a number of ways that voter 
list maintenance can be improved.
    One example I would give is perhaps automatic voter 
registration, which is a way of both facilitating participation 
and also making sure that voter rolls are more accurate by 
creating a constant stream of updates between registration 
agencies, other State agencies, and elections officials.
    About 19 States, including Representative Davis' home State 
of Illinois, have in recent years adopted these kinds of forms 
of automatic voter registration, which ensures that when voters 
move, for example, their registrations are automatically 
updated with the State. I think this is one really good way of 
ensuring both the accuracy of the voter rolls and ensuring 
that, at the very least, reducing the risk that voters are 
improperly removed from the rolls.
    Mr. Aguilar. Thank you.
    General Kaul.
    Mr. Kaul. Yeah. There are very useful ways to utilize 
cross-State data like the ERIC data that I was talking about 
before. One of the purposes of that data is to encourage States 
to reach out to people who aren't registered and to help them 
get registered to vote.
    At the same time, that data can also be helpful in 
providing information to election administrators to identify 
cases where there might potentially be voters who should be 
deactivated.
    What is important I think, though, is not to just take that 
data and act based on that data alone, but rather to follow up, 
and, for example, if you believe that somebody who is 
registered may have died, to follow up and get confirmation 
from vital records as to what that data indicates may be the 
case.
    Mr. Aguilar. Thank you. I appreciate the answer.
    Ms. Phillips, in 2016 and 2017 Public Interest Legal 
Foundation prepared a report titled ``Alien Invasion'' that 
alleged widespread noncitizen registration in Pennsylvania and 
Virginia and included highly sensitive personal information of 
numerous voters. Is that correct?
    Ms. Phillips. I disagree with the classification, but there 
is a report that we published called ``Alien Invasion,'' yes.
    Mr. Aguilar. The report was found to include inaccuracies. 
Many of the voters listed in the report were, in fact, citizens 
properly registered to vote. Is that correct?
    Ms. Phillips. The report relied upon data from the State of 
Virginia, and if there was any problem with that data, that 
would lie in the hands of the State of Virginia. And, in fact, 
we sued the State of Virginia for improper list maintenance.
    Mr. Aguilar. Was the president and general counsel of your 
organization ever required to issue a written apology to voters 
that had incorrectly been described in the report as 
noncitizens?
    Ms. Phillips. There is an apology. He made an apology.
    Mr. Aguilar. Was he required to issue the apology?
    Ms. Phillips. Not to my knowledge.
    Mr. Aguilar. Your organization has brought numerous efforts 
to try and force States and local governments to remove voters 
from their voting rolls. And given that your organization has 
been proven to not accurately determine whether voters are 
properly registered, why is your organization in a better 
position than local elected officials to decide which voters 
should be removed?
    Ms. Phillips. Well, I would like to know what inaccuracies 
you have discovered. In fact, we have offered a bounty, so to 
speak, for anyone who can find somebody who was improperly 
removed resulting from our enforcement actions, and to date, no 
one has come forward saying that they were improperly removed 
as a result of our actions.
    Mr. Aguilar. Thank you, Mr. Chairman. My time is up.
    Chairman Butterfield. Thank you, Mr. Aguilar.
    At this time, I will recognize the Ranking Member, Mr. 
Steil, for 5 minutes.
    Mr. Steil. Thank you, Mr. Chairman.
    What I am hearing today is, I think we can all agree we 
want every eligible voter to be able to cast a ballot. My 
objective is to ensure that it is easy to vote and hard to 
cheat.
    There are two key reasons why a person registered in a 
jurisdiction would need to be removed from the voter roll: The 
person is either deceased or the person has moved out of the 
jurisdiction or is otherwise disqualified. Federal law requires 
removing these registrants.
    In general, in Wisconsin, we do a pretty good job removing, 
in particular, deceased persons from the voter rolls. But at 
times, and in particular when the death is closely timed to the 
election, there have been instances of a person voting 
illegally on behalf of a dead person.
    Mr. Kaul, are you familiar with a case of voter fraud in 
Ozaukee County from 2020 in which a Wisconsin woman was charged 
with voting on behalf of her dead partner?
    Mr. Kaul. I have read reporting about that, yes.
    Mr. Steil. Very good. I think it is a case worthwhile 
looking into, because I think it shows that there are 
instances, when voter rolls are not clean, someone may try to 
take advantage of the situation. I think it shows the 
importance of making sure the voter rolls are accurate and up 
to date.
    And it is much more difficult, admittedly, to clean up 
voter rolls when someone moves because there is less paperwork 
associated than when someone has passed away.
    And the question before us today is, how do we clean up and 
remove ineligible voters from our voter rolls to avoid any 
illegal votes while still making it easy for folks to vote 
legally?
    And so, Mr. Kaul, if I can, should election officials in 
Wisconsin be prioritizing maintaining accurate voter rolls, in 
your opinion?
    Mr. Kaul. Yes. I think list maintenance is important for 
all the reasons that you have heard spoken about today. And I 
also think in Wisconsin we have same day registration, which I 
encourage all States to adopt because it is really helpful.
    Mr. Steil. I am going to get to that in just a second. I 
had that in my opening remarks because I think that is a key 
point here, and, in particular, how it plays out with voter ID.
    But, Mr. Kaul, is it correct that the original--not the 
original, the 2019 active movers list from the Wisconsin 
Elections Commission, that is the list of individuals who 
report on an official government transaction form an address 
different from their voter registration address, included, I 
think as you said, 232,000 individuals?
    Mr. Kaul. It was approximately 230,000, yes.
    Mr. Steil. In that neighborhood. And Wisconsin was able to 
confirm about 7 percent or about 17,000 of those individuals 
were registered at their original address, correct?
    Mr. Kaul. That is approximately right, yes.
    Mr. Steil. That is the number I have from the Wisconsin 
Elections Commission.
    And so then I think the question becomes, what about the 
other 93 percent of the individuals, the overwhelming majority 
of the people on the 2019 original movers list, what happened 
to them?
    And from the Wisconsin Elections Commission we were able to 
discover that 58 percent registered at a new address, which is 
great--they have moved, they are engaged in the process, that 
is appropriate, those folks it would be rational to bring off 
the list then--3.6 percent were deemed inactive for reasons 
such as moving out of State, being deceased, or another reason.
    And then the question really comes to, what is the final 
third? The roughly 30 percent or 71,000 people still on the 
active mover list are there because they didn't respond to a 
simple request for information from WEC.
    But there are also further indications that they have moved 
and they have not requested continuation of address, they have 
not re-registered to vote at a new address, and they did not 
vote in the 2020 election.
    WEC confirmed that no one in this list of roughly 71,000 
people did vote in the 2020 election, which is, to me, further 
evidence that this might have been a list of folks that have 
moved. And then, Mr. Kaul, you argued in court to keep these 
71,000 individuals on the voter rolls.
    And so the question becomes, what is the plan to keep the 
voter rolls accurate if we don't ultimately remove ineligible 
voters?
    And in the response to Mr. Aguilar asking what is the plan, 
I know we can do additional followup, but is there a specific 
plan that we could do in Wisconsin to specifically remove 
voters that all evidence indicates have moved and should be 
removed from the rolls?
    Mr. Kaul. Yeah. So, first of all, what we argued in court 
was that the Wisconsin Elections Commission was not required to 
remove a number of voters from the rolls. And the figure that 
you cited, the 230,000 figure, that shrunk significantly over 
time for the reasons that you mentioned.
    Mr. Steil. And it came down to 70,000 people total.
    But here, let me just move as to why I am so concerned.
    H.R. 1, as you may know, was passed by the House and would 
really gut voter ID laws. And when this issue is combined in 
Wisconsin, it gives me great pause that we have 71,000 people 
on the rolls that appear to be incorrectly on the rolls, by all 
accounts, and we are looking at gutting voter ID law with H.R. 
1.
    And so in Wisconsin and States across the country, we have 
voter rolls that are problematic and not accurate. And at the 
same time, we have Nancy Pelosi and attorneys working to gut 
voter ID law, and further, H.R. 1 would create a one-size-fits-
all approach.
    So I will leave it with this, because I know my time is 
running out, Mr. Chairman.
    I want it to be easy to vote and hard to cheat. And rather 
than working to remove key voter integrity provisions, my 
priority would be for us to work to find ways to really improve 
the confidence in our elections by working to appropriately 
clean up the lists.
    And with that, I will pause and yield back to you, Mr. 
Chairman.
    Chairman Butterfield. Thank you. The Ranking Member yields 
back.
    At this time, I will recognize Ms. Leger Fernandez for 5 
minutes.
    Ms. Leger Fernandez. Thank you, Mr. Chair, for holding this 
important hearing to hear about voting roll purges as a means 
of suppressing access to the ballot.
    And I want to really thank the witnesses for lending us 
your expertise and viewpoints.
    So the 2020 Presidential election saw record numbers of 
Americans, including record numbers of Latinos, turn out to 
vote. And this was in spite of certain State actions designed 
to limit access to the polls, especially for Latinos and other 
communities of color. And we see that certain States continue 
to pursue efforts to limit access to the ballot, including 
using the purging of voter rolls as an excuse.
    So I would note that while HAVA and Federal and State laws 
require maintenance of the rolls, it must be nondiscriminatory.
    So that is the issue that we are concerned about today, is 
how can we ensure it is nondiscriminatory, especially when we 
have so many instances of States choosing to target Latinos and 
other minority voters in that process.
    For example, both Florida and Texas have engaged in high-
profile efforts to try to remove alleged noncitizens, 
predominantly Latino voters, from the voting rolls.
    Ms. Phillips, after facing legal challenges, those two 
States were forced to abandon those efforts. Indeed, the Texas 
Federal court found that the alleged problem of voter fraud 
was, quote, ``infinitesimally small.''
    And, as Ms. Lakin noted, the court further found that 
Texas' State actions to purge the voter rolls, which were very 
similar to Florida's, exemplified, as you noted, exemplified 
the power of government to strike fear and anxiety and to 
intimidate the least powerful among us.
    Ms. Phillips, as a litigator in these matters, have you 
read these orders, the Texas LULAC v. Whitley and Arcia v. 
Florida Secretary of State?
    Ms. Phillips. Yes, I have.
    Ms. Leger Fernandez. Mr. Chair, I seek unanimous consent to 
enter into the record the two documents. As noted, the first 
was the 11th Circuit decision holding that Florida's voter 
purge program violated the law, and the second was the district 
court order requiring that Texas officials halt the removal of 
voters from the polls.
    Chairman Butterfield. All right. Without objection.
    Ms. Leger Fernandez. Ms. Phillips, you opined in your 
testimony that inaccurate voter rolls is a significant problem 
in America's electoral process.
    Do you think it is a problem if these purges remove a 
disproportionate number of eligible voters of color from the 
voter rolls? This is a yes or no question.
    Ms. Phillips. Absolutely. No eligible voter should be 
removed.
    Ms. Leger Fernandez. Thank you.
    You know, contrary to what we hear in sometimes capitalize 
tweets of fraud and big news splashes, there is not actually 
evidence that there are many undocumented immigrants committing 
widespread voter fraud.
    Dr. Meredith, in your view, what is the result, what is the 
actual result when we have these targeted, highly publicized 
efforts to remove noncitizens from the voter rolls?
    Mr. Meredith. I think you want to think both about the 
direct and indirect effects that election actions will have. 
There are potential direct effects if an eligible person's 
registration gets removed or the direct effects if an action 
results in a registration being removed that prevents an 
eligible vote from being cast.
    But I also think it is important to keep in mind that 
voters don't have complete information. A lot of times I like 
to remind my Introduction to American Politics class that only 
two-thirds of Americans know the name of the Vice President.
    And so I think one concern I have when you have high-
profile efforts is that people don't always understand the 
exact actions being taken and can misconstrue actions to 
potentially have broader effects than they do.
    So, for example, I have done research on voter ID laws and 
show that a lot of people don't understand that if they don't 
have their ID on the day of the election there may be a process 
for them to still cast a ballot via provisional ballot.
    And so I have concerns about any election policy that you 
don't just want to think about directly who the affected 
parties are but also indirectly what the consequences might be.
    Ms. Leger Fernandez. Thank you, Mr. Meredith.
    Ms. Lakin, you noted in your written testimony that many 
lawsuits brought by the Public Interest Legal Foundation and 
other activist organizations actually focused on jurisdictions 
with large Latino and Black populations and that these lawsuits 
were rejected.
    Can you share how these cases could limit voting access for 
minority voters?
    Ms. Lakin. Yes, absolutely.
    The problem with many of these voter roll purges, as we 
have discussed, is that in many cases the inaccuracies in the 
voter rolls, the type of information that is being collected, 
for example, noncitizen information, are going to target, 
unfortunately, voters of color most frequently.
    When applied then in certain areas that have high 
populations of minority voters you are going to end up in a 
situation where you are inevitably disproportionately removing 
voters of color and minorities from the rolls, and that is 
extremely concerning.
    Ms. Leger Fernandez. Thank you. My time is up. I yield 
back.
    You need to unmute, Mr. Chair.
    Mr. Davis. I think you are muted, Mr. Chair.
    Chairman Butterfield. I was trying to use the space bar to 
unmute. I keep getting a message that it can be used as an 
unmute tool, but it didn't work.
    But anyway, thank you, thank you to the gentlelady for your 
questions.
    At this time, I will recognize the Ranking Member from 
Illinois, Mr. Davis.
    Mr. Davis. Just a quick point of personal privilege. We 
will ask Jamie Fleet to send down the CAO to get your spacebar 
fixed, Mr. Chair. They will be there momentarily, I promise.
    Chairman Butterfield. I think I was the problem, Rodney. I 
confess.
    Mr. Davis. It is never user error, sir. Never user error.
    Chairman Butterfield. Thank you.
    Mr. Davis. I really enjoy these hearings. And I have 
traveled the country during the last Congress, talking about 
many of these issues.
    And here is the good news. The vote suppressionists that we 
talk about in this Subcommittee, they have been doing a pretty 
crappy job over the last two election cycles, because we had 
historic midterm turnout, we had historic turnout in 2020, 
which is great, because that meant as many eligible voters in 
the United States were able to cast a vote for their preferred 
candidates.
    And while we may not like the outcomes of elections, that 
is a positive that we all ought to celebrate.
    And that leads me to my question.
    So, Ms. Phillips, thanks again for being here today, again, 
with all the witnesses. Give us your definition of list 
maintenance for the Committee.
    Ms. Phillips. Certainly. List maintenance is ensuring that 
only eligible individuals are on the voter registration list.
    Mr. Davis. Good. As you are aware, Section 8 of the NVRA 
governs the process for States to conduct list maintenance, 
which is critical for good election administration.
    Can you briefly describe the criteria and requirements that 
must be met in order for a State to remove a voter from its 
registration rolls?
    Ms. Phillips. Sure. Section 8 requires that list 
maintenance be conducted for registrants who are deceased and 
who have been moved. And there are certain fail-safes in there 
to ensure that voters are not removed unless certain criteria 
are met.
    Mr. Davis. Great.
    There are many people who believe that voters are removed 
from their State's voters rolls solely as a result of not 
voting. That is not true, right?
    Ms. Phillips. That is not true.
    Mr. Davis. What makes a voter inactive?
    Ms. Phillips. It depends on the State law. Oftentimes it is 
an indication from a number of sources that a voter has moved, 
a registrant has moved, for example, the National Change of 
Address database.
    Mr. Davis. Okay.
    Speaking of that, can you describe the voter notification 
process and really the timeframe that States must follow when 
removing inactive voters from the registration rolls according 
to law?
    Ms. Phillips. Absolutely. The problem is that this is State 
law specific. So it is difficult to explain every State's 
procedure.
    However, in general, there will be a notice sent to the 
address that is on file and there will be steps that the 
registrant can take to confirm that the address is still valid.
    And then, if the notice is returned to election officials, 
there are other steps that are then taken by the election 
official.
    Mr. Davis. Okay.
    And some States actually do multiple notices, correct?
    Ms. Phillips. That is correct.
    Mr. Davis. Okay.
    You state in your testimony that a significant problem 
facing America's electoral process is the chronic inaccuracy 
and lack of integrity in the voter rolls that list the 
individuals registered to vote in local, State, and Federal 
elections.
    The foundation has conducted extensive research into the 
accuracy of various State voter rolls, right?
    Ms. Phillips. Correct.
    Mr. Davis. In fact, your foundation has sued several States 
for failure to maintain accurate and current voter rolls as 
required by Federal law, correct?
    Ms. Phillips. That is correct. Not--we have sued counties 
and State election officials.
    Mr. Davis. Okay.
    And through your foundation's work, have you discovered 
State voter rolls that contain more voters registered in a 
jurisdiction than eligible voters that live in that 
jurisdiction?
    Ms. Phillips. Yes.
    Mr. Davis. Voters registered at commercial addresses rather 
than residential addresses?
    Ms. Phillips. Yes.
    Mr. Davis. What about voters registered at vacant lots?
    Ms. Phillips. Yes.
    Mr. Davis. Deceased voters, dead voters?
    Ms. Phillips. Yes.
    Mr. Davis. I know I am from Illinois. I shouldn't talk 
about that.
    Nonresident voters?
    Ms. Phillips. I am sorry. What do you mean by nonresident 
voters? Not resident of the jurisdiction?
    Mr. Davis. Correct.
    Ms. Phillips. Yes.
    Mr. Davis. What about duplicate registrations?
    Ms. Phillips. Yes.
    Mr. Davis. Noncitizen voters?
    Ms. Phillips. Noncitizen registrants, yes.
    Mr. Davis. Noncitizen registrants. Okay.
    Well, look, I think it is great to have these discussions. 
We are talking about vote fraud being infinitesimal, it is just 
such a small amount, it is just a little bit of fraud. You 
know, everything matters. Every instance of fraud matters.
    Remember, we did not seat a duly elected Member from North 
Carolina's Ninth District because of voter fraud and the ballot 
harvesting provisions that were not legal in North Carolina but 
legal in California and others.
    There are so many processes right now in our election 
process that we need to delve into that, but at the same time 
we have to encourage the positivity of how well we have done as 
a country in every State across this Nation in having historic 
voter turnout in the midterms and in the last election, the 
last Presidential election.
    And I know some of my colleagues' heads might be exploding. 
They will say, ``Turnout doesn't matter.''
    Well, it did when we were figuring out--when our 
predecessors were figuring out what covered jurisdictions would 
be in the original Voting Rights Act. It mattered then, it 
should matter today, and we are doing things right in this 
country.
    And I thank all of our witnesses and my colleagues for 
being here today.
    I yield back.
    Chairman Butterfield. I thank you, Mr. Davis.
    At this time the Chair recognizes the gentleman from 
Georgia, Mr. Loudermilk.
    Mr. Loudermilk. Well, thank you, Mr. Chairman. I appreciate 
the opportunity to be here and appreciate this hearing, because 
voter maintenance is extremely important.
    And before I begin my questions, I want to reiterate that 
this is a top priority for every Republican on the Committee, 
that every lawful vote be counted and that every qualified 
voter is able to vote safely. That is extremely important. It 
is the basis of our Nation and our election system.
    The integrity of our elections should be paramount as we 
exercise our role on this Committee to oversee the Federal 
elections process, and that includes ensuring that voter rolls 
are kept up to date.
    One issue that is of particular concern to me and many of 
my colleagues and one that I will continue to be vocal about 
addressing is the propensity for poorly maintained voter rolls 
to undermine public confidence in election results, especially 
with the increased prevalence of mass mail-in ballots like we 
saw in the 2020 election.
    In fact, a member of my staff received three primary 
ballots during the last election cycle. The ballots did not 
belong to my staff member or anyone else who lived at that 
address, and they had lived at that address for several years.
    And at the residence for the elections in the jurisdiction 
which he received the ballots, they did not live. Basically he 
lived in D.C. and these ballots came from Maryland to someone 
else's name. And, again, he had lived at that address from way 
beyond the previous election.
    To be clear, these were not ballot applications but live 
ballots.
    And in this scenario, if this scenario that had played 
out--now, he took pictures of these ballots and he showed them 
to me and he properly destroyed those ballots.
    But if this scenario plays out in States across the 
country, the potential for millions of ballots to be sent out 
indiscriminately without people requesting them and to the 
wrong address creates the potential for fraud.
    And he very well easily could have filled out these three 
ballots that weren't his. He is from Georgia, lives in D.C., 
received the Georgia ballot he requested, but received three 
ballots from Maryland he did not request to other people's 
names.
    And this really brings doubt to the integrity of the 
election system.
    Now, my questions.
    Ms. Phillips, your foundation brought enforcement action 
against States for failing to conduct comprehensive list 
maintenance as required under the National Voter Registration 
Act, as the ranking member has brought up.
    In your opinion, why are certain States reluctant to 
routinely conduct voter list maintenance?
    Ms. Phillips. In my opinion, the pressure has come from 
various interest groups not to maintain the rolls for myriad 
reasons. So the pressure is to do nothing.
    It is also at times difficult to conduct list maintenance. 
It requires diligence. It requires consistency. And there may 
be lack of training. Various reasons why election officials 
would not conduct list maintenance.
    Mr. Loudermilk. Okay. One thing you didn't mention was 
funding. Do you ever--have you ever encountered that maybe it 
is a lack of funding to do this?
    Ms. Phillips. Absolutely. And the problem is that having 
unclean rolls only makes the financial burden greater when you 
are mailing out pieces of mail to individuals that should not 
be registered to vote. So it is one of those tasks that should 
be a priority in order to trim budgets in other places.
    Mr. Loudermilk. So you have mentioned that there is 
pressure from outside groups, which we are fully aware of in 
Georgia. There are a lot of groups putting a lot of pressure on 
the election system, on both sides.
    But you have mentioned that they are putting a lot of 
pressure on some elected officials or government officials to 
not purge voter rolls. I note in some cases there are threats 
of lawsuits, et cetera, et cetera.
    What impact does a State's failure to conduct their list 
maintenance have on the integrity of our election process?
    Ms. Phillips. As you mentioned, it is devastating to voter 
confidence. The example of one person receiving multiple 
ballots, especially for individuals that do not live in that 
location, those effects can be felt far and wide.
    So it is a voter confidence issue and it also is just a 
misallocation of resources for these election officials that 
have in many cases very limited budgets anyway.
    Mr. Loudermilk. Well, thank you.
    And one last question for you. Are States required to 
coordinate with State or Federal agencies to verify voter 
information when conducting their list maintenance?
    Ms. Phillips. No.
    Mr. Loudermilk. Okay.
    Turning to Ms. Lakin.
    Your state in your testimony that accurate rolls are 
appropriate and necessary for election administration. And I am 
glad to hear that the ACLU supports voter list maintenance.
    In your testimony you highlight perceived problems with 
various databases available but don't mention alternatives. If 
States need accurate voter registration lists, what databases 
or alternative measures should they use to maintain their 
lists?
    Ms. Lakin. Thank you, Representative.
    I think I mentioned earlier today that automatic voter 
registration, for example, is one solution, one assistive 
program that could provide assistance with maintaining accurate 
voter rolls, as well as ensuring that voters aren't improperly 
purged from the rolls.
    In addition, having good notice and sufficient time for 
voters who may have been purged from the rolls inaccurately to 
correct the record is absolutely critical in this regard and is 
not always provided in the way that it should be provided, as 
is the case in Indiana where we have sued successfully multiple 
times.
    Mr. Loudermilk. Well, and making sure that only legal 
voters are the ones casting the vote is important. I could go 
through multiple stories of even in this last election people 
that have moved as much as a decade before started receiving 
ballots again from the State they moved from.
    And I have got numerous reports of that, and even people 
that are family members who called me and said, ``Hey, I just 
want to let you know. You know I moved from State X 10 years 
ago. I just started getting a ballot again in this election''--
which was ironic, that it was this election that they got the 
ballots that they had never--that they hadn't received since 
they left, which tells me it was a voter list issue.
    So thank you, Mr. Chairman, for this hearing. I appreciate 
the time. And I yield back.
    Chairman Butterfield. I thank the gentleman.
    At this time I will recognize the gentlelady from 
Pennsylvania, Ms. Scanlon, for 5 minutes.
    Ms. Scanlon. Thank you, Chairman Butterfield, for holding 
this very timely hearing.
    Chairman Butterfield. It is not a Loudermilk 5 minutes. 
That is a Scanlon 5 minutes.
    Ms. Scanlon. Can I have some of Davis' time maybe?
    Chairman Butterfield. You could do a Davis time limit, 
sure.
    Ms. Scanlon. Okay.
    Chairman Butterfield. Yes.
    Ms. Scanlon. Over the past decade we have seen a rise in 
modern day voter suppression techniques built upon a false 
narrative that our elections are vulnerable to widespread 
fraud.
    This false, unsubstantiated narrative has been used to 
justify an array of voter suppression techniques, including 
strict voter ID laws, restrictions on hours and places of 
voting, and the practice under consideration today, voter roll 
purges.
    Unlike gerrymandering, which has a long history of 
bipartisan abuse, these new techniques have been weaponized by 
one party to suppress the votes of those less likely to support 
that party and to energize its own supporters by claiming--
without evidence--that our elections are subject to widespread 
fraud.
    Of course, the members of this Committee and the entire 
world saw the damage that can occur when national leaders 
spread lies about the integrity of our elections, with exhibit 
A being the violent attack on the U.S. Capitol which occurred 4 
months ago today.
    Pennsylvania has a robust bipartisan election security 
system, including voter roll maintenance, which not only 
conducts secure and accurate elections twice a year, but also 
in the past year has managed to identify and prosecute those 
few bad actors who tried to commit election fraud. And it is 
worth noting that they were all supporters of the former 
President who were inspired by his unsubstantiated claims of 
rampant election fraud.
    So we are talking about voter roll purges that have been 
initiated by some States, but I want to focus on efforts by 
groups such as Judicial Watch and the Public Interest Legal 
Foundation to force voter purges in areas that do not favor 
their candidates.
    In the lead-up to the 2020 election, the group Judicial 
Watch attempted to force the State to purge hundreds of 
thousands of voters but focused on the three counties bordering 
Philadelphia, two of which I represent, which have increasingly 
trended to Democratic candidates over recent years.
    Ms. Lakin, the ACLU intervened in this suit brought against 
Pennsylvania and its counties prior to the 2020 election. Can 
you discuss what happened in that case and address Judicial 
Watch's allegations about mass defects in voter roll 
maintenance?
    Ms. Lakin. Yes, absolutely.
    In this case, which was recently dismissed in March of 
2021, there were allegations that the list maintenance process 
was incomplete, was unreasonable, or was insufficient.
    In dismissing this case, however, the court concluded that 
the lawsuit was based on outdated information and data which is 
subject to all the problems that we have discussed earlier.
    And the court also concluded that Judicial Watch based its 
lawsuit on--rejected the claim that just high discrimination 
alone should lead to an inference that counties have a list 
maintenance problem and targeting districts just based on that 
information alone leads to--is not a problem in itself.
    And I should just flag very, very briefly that, because 
there is this notice and waiting process that has been 
highlighted by many members today and other witnesses, there is 
often a little bit of a lag before some voters that are to be 
removed are actually removed.
    And so that in and of itself should not be a basis for 
forcing jurisdictions like your own to conduct overly 
aggressive purges based on information that is outdated and 
may, therefore, wrongly purge and disenfranchise voters.
    Ms. Scanlon. Would it be fair to say that this group was 
not seeking for a global solution to Pennsylvania's voter roll 
situation if it was only targeting the most Democratic 
districts?
    Ms. Lakin. I think that would be fair to say, that it was 
targeting just the three districts that were included in the 
lawsuit.
    Ms. Scanlon. Are you aware that, having had the case 
dismissed just in March, three days ago Judicial Watch has now 
tried to start the case all over again in the run-up to the 
2022 elections?
    Ms. Lakin. I am, unfortunately, aware of that fact.
    Ms. Scanlon. Unfortunately aware.
    So one of the things we have seen is that Judicial Watch 
and these other organizations bring these suits. Very 
expensive, aren't they?
    Ms. Lakin. Litigation is often extremely expensive on both 
ends, on everybody's part.
    Ms. Scanlon. So it wastes valuable public resources that 
could go into more election security, more election 
availability?
    Ms. Lakin. I think that is a fair statement.
    Ms. Scanlon. Okay.
    Is there anything we can do to reform the NVRA to prevent 
suits like the one that was brought here?
    Ms. Lakin. Yes. There are multiple ways that list 
maintenance can be improved. There can be additional 
protections for ensuring that overly aggressive purges aren't 
taking place.
    For example, increased guardrails for using improper, 
unreliable, or outdated data; ensuring that there are 
additional checks on that information; ensuring that there is 
more notice that is provided for voters who may be flagged in 
that; and banning, for example, inaccurate proxies, for 
example, the failure to vote, which we have argued and have 
demonstrated is highly inaccurate as a trigger for removing 
someone from the rolls.
    These are all different methods for ensuring that local 
jurisdictions and States aren't forced to conduct purges that 
are overly aggressive and wrongly disenfranchise thousands and 
thousands of voters.
    Ms. Scanlon. Thank you.
    And I see that my time is expired. I did want to involve 
Mr. Meredith from the University of Pennsylvania in the 
discussion, but I am afraid the Chair will have my head.
    So thank you for your testimony, and I did appreciate your 
report.
    Chairman Butterfield. Thank you, Ms. Scanlon. And you just 
got a chuckle from the staff. Thank you.
    The Chair now recognizes himself for not more than 5 
minutes.
    Let me just address this to Ms. Lakin.
    Ms. Lakin, what do you think are the most important changes 
that we can make to Federal election laws governing State voter 
list maintenance practices?
    Ms. Lakin. Thank you for that question, Chairman.
    The Congress can do many things. I would point to the list 
maintenance and transparency and notice provisions in H.R. 1. 
Those go quite a long way.
    In addition, there are these guardrails that I mentioned 
with Representative Scanlon that help to ensure that proxies 
that are unreliable, that are based on outdated databases are 
in place to ensure that voters are given security precautions 
before they are removed from the rolls.
    I would also highlight--and this has come up in a few 
instances--that same-day registration, I will add that it does, 
in fact, provide at least some fail-safe for voters who may be 
erroneously purged from the rolls who can then show up at the 
polls, that they are able to register and vote at that time. 
That is at least a fail-safe option for those voters.
    Chairman Butterfield. Thank you.
    What about you, Dr. Meredith? Can you add any to this 
discussion?
    Mr. Meredith. I think one thing I would like to see done is 
more modernization in how people are notified when there are 
questions about whether they are eligible to vote or not.
    I think the cases that make me most concerned are when 
things like undelivered election mail trigger list maintenance 
action which is then responded to by sending them a postcard. 
If the problem is that there is an issue with the mail, you are 
not going get that postcard.
    And so I think we need to be thinking about what forms of 
communication we can be using beyond postcards to make sure 
that voters actually see the information and can act upon it in 
a timely way.
    Chairman Butterfield. Thank you. Thank you for that.
    Let me now go to the attorney general.
    Mr. Kaul, you have testified, I believe you said, in 
numerous cases to protect voters' access to the ballot, and 
that is a good background for the question that I need to ask 
you.
    What are the most important tools at the Federal level, not 
the State level, but the Federal level to protect the right of 
the voter to exercise their franchise?
    Mr. Kaul. That is right, Mr. Chair. I have litigated 
several voting rights cases.
    Certainly the U.S. Constitution protections related to the 
right to vote are critically important. But the Voting Rights 
Act plays a critical role as well.
    Strengthening the Voting Rights Act and providing greater 
clarity to how Section 2 applies, I think, is very useful.
    It is also true that we have seen States since the Shelby 
County ruling restrict access to voting. So restoring some sort 
of regime like used to be in place under Section 5 would be 
extremely valuable.
    And then rules that protect people's access to 
registration, like the NVRA, are also very valuable.
    Chairman Butterfield. Attorney General, my staff tells me 
that you successfully defended the Wisconsin Elections 
Commission against an effort by a conservative group to 
compel--it was an interest group--to compel the purging of 
voters in your State.
    Why are State and local election officials in a better 
position than private interest groups to determine whether to 
initiate proceedings?
    Mr. Kaul. There are a few reasons. One is State and local 
officials can obtain local data and they can find things like 
death notifications that, when you have an outside interest 
group that is just using log scale data, they can't get into 
the details as well.
    The other thing is election officials often have access to 
personal identifying information that is not publicly 
available. And so they can make a better determination often 
about whether two records relate to the same person or 
different people.
    And then, of course, they have experience administering our 
elections. They are not there with an agenda other than to 
administer elections fairly and effectively.
    Chairman Butterfield. Thank you.
    I have got 30 seconds left, and let me conclude with Ms. 
Lakin.
    How do State voter removal programs have the potential to 
discriminate against minority voters?
    Ms. Lakin. Well, there are a number of different ways. The 
database inaccuracies and flawed matching protocols that we 
have discussed play a really big part in this.
    As I noted, in Texas the fraud effort there targeted 
naturalized citizens who are a group that, at least in Texas, 
80 percent of that group were Black or Latinx or of Asian 
origin. The same was true in the Florida purge that attempted 
to target, again, noncitizens but ended up sweeping in 
naturalized citizens.
    Matching protocols, as we talked about with Dr. Meredith, 
they rely on names and date of birth. They frequently 
disproportionately flag voters of color because of their naming 
conventions and higher rates of similar names.
    These burdens also, they are halting the process of getting 
registered in the first instance. They fall more heavily on 
voters of color due to structural inequalities, structural 
racism, the history of suppression in this country that make 
many of these activities much more difficult for voters to 
overcome.
    Chairman Butterfield. Thank you.
    Ms. Lakin. Thank you.
    Chairman Butterfield. Thank you. I think my 5 minutes has 
expired.
    Let me just thank all of the witnesses for your very 
valuable testimony today.
    And I thank the members for their questions. These have 
been some very insightful questions.
    The members of the Committee may have additional questions 
for the witnesses. And, if so, we will ask you to respond to 
those in writing. The hearing record will be held open for 
those responses.
    Again, I want to thank all of the witnesses for your very 
valuable testimony today. Many thanks to all of you for all 
that you do in the voting space, in the election space. You 
have been very valuable to this process, and I thank you for 
it.
    We will continue to have these important hearings as we 
seek to comply with the Supreme Court's decision of 2013.
    Without objection, the Subcommittee on Elections of the 
Committee on House Administration stands adjourned.
    [Whereupon, at 3:25 p.m., the Subcommittee was adjourned.]

      

                   QUESTIONS FOR THE RECORD

=======================================================================

 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]     
    
    

      

               SUBMISSIONS FOR THE RECORD

=======================================================================

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
   
    
</pre></body></html>
